No. 20-197
IN THE

Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, ET AL.,
Petitioners,
v.
KNIGHT FIRST AMENDMENT INSTITUTE AT
COLUMBIA UNIVERSITY, ET AL.,
Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,117
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 21, 2020.

/s/ Jameel Jaffer
Jameel Jaffer

